No. 20-1507

In the Supreme Court of the United States
ASSOCIATION OF NEW JERSEY RIFLE & PISTOL CLUBS, INC.;
and BLAKE ELLMAN,
Petitioners,
v.
GURBIR S. GREWAL, in his Official Capacity as Attorney
General of New Jersey, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE As required by Supreme Court Rule 33.1(h), I

certify that the Brief of Amicus Curiae Mountain States Legal Foundation’s Center
to Keep and Bear Arms in Support of Petitioner contains 5,978 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 28, 2021.
/s/ Cody J. Wisniewski
Cody J. Wisniewski
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cody@mslegal.org
Attorney for Amicus Curiae

